U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 30, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Allen e. Peitham, Jr., et al. v. United States of America
S.CtNo. 19-16

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 27,
2019, and placed on the docket on July 1, 2019. The government's response is due on July 31,
2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 30, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0016
PEITHMAN, ALLEN E., JR., ET AL.
USA

KELSI BROWN CORKRAN
ORRTCK, HERRINGTON & SUTCLIFFE LLP
1152 15TH STREET, N.W.
WASHiNGTON, DC 20005
202-339-8400
KCORKRAN@ORRICK.COM
ROBERT B. CREAGER
ANDERSON, CREAGER & WITTSTRUCK, PC,
LLO
1630 K STREET
LINCOLN, NE 68508
MARK E. RAPPL
NAYLOR & RAPPL LAW OFFICE P.C., LLO
1111 LINCOLN MALL
SUITE 300
LINCOLN , NE 68508
E. JOSHUA ROSENKRANZ
ORRICK,HERRINGTON & SUTCLIFFE LLP
51 WEST 52ND STREET
NEW YORK,NY 10019
212-506-5000
JROSENKRANZ@ORRICK.COM
ELISABETH S. THEODORE
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001-3743
202-942-5891
ELISABETH.THEODORE@ARNOLDPORTER.0
OM

